No. 19-60
In the

Supreme Court of the United States
CORA KERTON,
Petitioner,
v.
SOCIETY HILL AT DROYERS POINT CONDOMINIUM
ASSOCIATION, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
Superior Court of New Jersey, A ppellate Division

BRIEF IN OPPOSITION
Michael Jubanyik
Counsel of Record
Michelle Cappuccio
Reilly, McDevitt & Henrich, P.C.
Three Executive Campus, Suite 310
Cherry Hill, New Jersey 08002
(856) 317-7180
mjubanyik@rmh-law.com
Counsel for Respondents

290167

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1. Does Petitioner writ involve any Federal claims or
question of national importance that would require this
Courts review of the New Jersey Courts granting of a
Summary Judgement motion?
2. Does the State Court Judgment rest on Adequate
and Independent Non-Federal Grounds?

ii
CORPORATE DISCLOSURE STATEMENT
Respondent, Landscape Maintenance Services, Inc.
(“LMS”) is a private company. No publicly held corporation
owns 10% or more of LMS. LMS is a wholly owned
subsidiary of Landscape Companies Inc. Landscape
Companies Inc. owns 100% of the stock of LMS.
Respondent, Society Hill at Droyers Point, (“Society
Hill”) is a private entity. No publicly held corporation
owns 10% or more of Society Hill. There are no parent
companies associated with Society Hill.

iii
STATEMENT OF RELATED PROCEEDINGS
The Related Proceedings are discussed in Petitioner’s
Brief.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . 1
INTRODUCTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

Reasons for Denying Writ of Certiorari . . . . . . . 2
A. This Court does not have jurisdiction
to address the summary judgment
standard in New Jersey  . . . . . . . . . . . . . . . . 2
B. No important issues of federal law are
implicated in this case . . . . . . . . . . . . . . . . . . 4
C. This case does not involve a circuit
court split  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
D. The State Court Judgment rests on
Adequate and Independent NonFederal Grounds . . . . . . . . . . . . . . . . . . . . . . . 5

v
Table of Contents
Page
II. The Petition Contains Misstatements of
the Facts and Law . . . . . . . . . . . . . . . . . . . . . . . . . 9
III. Conclusion  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

vi
TABLE OF CITED AUTHORITIES
Page
CASES
Clements v. Gonzales,
496 F. Supp. 2d 70 (D.D.C. 2007) . . . . . . . . . . . . . . . . . 2
Durham v. United States,
401 U.S. 481, 91 S. Ct. 858,
28 L. Ed. 2d 200 (1971) . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fay v. Noia,
372 U.S. 391 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Murdock v. Memphis,
20 Wall. (87 U.S.) 590 (1874) . . . . . . . . . . . . . . . . . . . . . 3
Rice v. Sious City Memorial Park Cemetery, Inc.,
349 U.S. 70 (1955)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Vuocolo v. Diamond Shamrock Chemical Co.,
240 N.J. Super. 289 (App. Div.), cert. denied,
122 N.J. 333 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
STATUTES AND OTHER AUTHORITIES
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
New Jersey Appellate R. 2:11-3(e)(1)(E) . . . . . . . . . . . . . 7
New Jersey Rule of Court 4:21A-4(e)  . . . . . . . . . . . . . . 11

vii
Cited Authorities
Page
Sup. Ct. R. 10  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Sup. Ct. R. 10(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4
Sup. Ct. R. 10(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4

1
JURISDICTIONAL STATEMENT
No question of federal law was addressed by the New
Jersey Appellate Division in its Opinion issued on October
1, 2018. See Petitioner’s Appx. B. The issue of whether a
federal question exists was not brought before any other
court prior to this petition for writ of certiorari. Therefore,
this action does not fall within this Court’s jurisdiction
pursuant to 28 U.S.C. §1257(a) Rule 10(b, c), and Rules of
the Supreme Court of the United States.
INTRODUCTION
This Court should decline to grant certiorari in this
matter because the principle issue raised by Petitioner is
a question of law of the State of New Jersey, which does
not implicate or transgress any federal principle falling
within this Court’s jurisdiction. Despite Petitioner’s
desperate attempt to raise an issue by citing to the fact
that Petitioner was a first responder, there is no federal
question presented here in this personal injury matter.
The New Jersey Courts correctly applied the standards
of negligence when they affirmed the trial court’s decision
granting summary judgment to Landscape Maintenance
and Society Hill (“hereinafter referred to collectively as
“Respondents”). This personal injury case is not a matter
that should be addressed by the Supreme Court of the
United States. There is no federal question regarding the
standard for summary judgment in New Jersey. The New
Jersey trial court, Appellate Division and subsequently
the New Jersey Supreme Court were correct to dismiss
Petitioner’s case at the summary judgment stage.

2
ARGUMENT
I.

Reasons for Denying Writ of Certiorari
A.

This Court does not have jurisdiction to
address the summary judgment standard in
New Jersey

The question of whether or not the State Court
improperly granted the Respondents’ summary judgement
in this personal injury matter, pursuant to New Jersey law,
does not have any federal law implications or questions.
Therefore, respectfully, this Court lacks jurisdiction to
address the issue.
This Court, as authorized by Congress, has set forth
its own guidelines for appeals. See Clements v. Gonzales,
496 F. Supp. 2d 70 (D.D.C. 2007). There is no appeal as
a matter of right to the United States Supreme Court.
Durham v. United States, 401 U.S. 481, 483 n.*, 91 S.
Ct. 858, 28 L. Ed. 2d 200 (1971). Rather, decisions on
petitions for writ of certiorari are entirely discretionary.
Id. The following, although neither controlling nor fully
measuring the Court’s discretion, indicate the character
of the reasons the Supreme Court considers petition for
writ of certiorari:
(b) a state court of last resort has decided
an important federal question in a way that
conflicts with the decision of another state
court of last resort or of a United States court
of appeals;

3
(c) a state court or a United States court of
appeals has decided an important question
of federal law that has not been, but should
be, settled by this Court, or has decided an
important federal question in a way that
conflicts with relevant decisions of this Court.
Sup. Ct. R. 10. A petition for a writ of certiorari is rarely
granted when the asserted error consists of erroneous
factual findings or the misapplication of a properly stated
rule of law. See also Fay v. Noia, 372 U.S. 391, 436 (1963)
(the issuance of a writ of certiorari is not a matter of right,
but of sound judicial discretion, and will be granted only
where there are special and important reasons therefor);
Rice v. Sious City Memorial Park Cemetery, Inc., 349 U.S.
70, 73 (1955) (given its discretionary power of review, this
Court decided the case before it was not one in which there
were special and important reasons for granting the writ
of certiorari).
State courts are the appropriate tribunals, as this
Court has repeatedly held, for the decision of questions
arising under their local law, whether statutory or
otherwise. Murdock v. Memphis, 20 Wall. (87 U.S.)
590, 626 (1874).
Accordingly, the petition for writ of
certiorari should be denied; this Court lacks jurisdiction
to address whether the summary judgment standard was
met with regard to negligence under the law of the State
of New Jersey. This petition amounts to an assertion
that the lower courts erred in their factual findings and
application of properly stated rules of law. As Rules of the
Supreme Court of the United States indicates, this type
of petition is rarely granted, this Court should deny the
petition. Sup. Ct. R. 10.

4
B. No impor tant issues of federal law are
implicated in this case
There is no federal law or statute that is implicated
in the questions presented by Petitioner. The question
of whether or not the New Jersey trial court abused
its discretion is not an issue of federal law. The issue of
whether or not the Petitioner met her burden of proof in
this personal injury matter, as to negligence is not an issue
of federal law. The Condominium Act of New Jersey is a
state statute that does not implicate federal law. The issue
of whether Petitioner’s expert report constituted a net
opinion is not an issue of federal law. There is no question
that this is not a case “where a state court of last resort
has decided an important federal question in a way that
conflicts with the decision of another state court of last
resort or of a United States court of appeals.” Sup. Ct. R.
10(b). Petitioner makes no reference and cites no authority
to other opinions of state courts of last resort or United
States court of appeals. This is similarly not a case where
“a state court…has decided an important federal question
in a way that conflicts with the relevant decisions of this
Court.” Sup. Ct. R. 10(c). Petitioner makes no reference
and cites no authority to other opinions in conflict with
relevant decisions of this Court. As discussed above,
the state courts did not rule on any important question
of federal law because no federal question was ever
presented to the state trial court. The substantive question
ultimately deals with summary judgment standard and
is fact specific to this case. Despite Petitioner’s attempts
to create a question of national importance, dealing with
first responders, there is no federal question presented
by the Petitioner.

5
For these reasons, this Court should exercise its
judicial discretion to deny the petition for writ of certiorari.
C.

This case does not involve a circuit court split

This matter was not presented to the circuit courts.
Thus, this matter would not qualify to be considered by
this Court in granting certiorari under circuit court split
jurisdiction.
D.

The State Court Judgment rests on Adequate
and Independent Non-Federal Grounds

The state court judgment is based on New Jersey
substantive law regarding when summary judgment is
appropriate in this particular case with these particular
facts. The New Jersey standard for summary judgment
fully protects the interests of the party against whom such
a motion is asserted. Both at the trial court and at the
Appellate court level, the standard of review was de novo.
Both courts when reviewing this matter drew inferences
in the light most favorable to the Petitioner. In granting
Respondents’ Motion for Summary Judgment, the trial
court found that there were no genuine issues of material
fact and that the Respondent, LMS properly performed
its contractual duties for snow removal services at Society
Hill during an active snowstorm on March 5, 2015.
The trial court correctly relied on the facts established
by the record which support the conclusion that LMS
performed services on March 5, 2015 in conformance
with the contract signed by the parties. The trial court
held that,

6
I’m satisfied from the evidence submitted by
the snow plow people, the testimony of their
witnesses at the deposition, and the documents
showing that they were there that they were
conducting operations starting at 8 o’clock in
the morning. They were at the Association all
day. All the contract called for, which certainly
appeared reasonable, was that while it was
still snowing the roads would be accessible by
emergency vehicles, which they clearly were. I
don’t see any genuine issue of fact as to whether
or not the defendant’s snow plow removal
company did what they said they did and what
the contract called for, which was reasonable.
They part of the – well, what they did after the
snow stopped is really irrelevant, but that’s
when they were obligated to start making it
safe for pedestrians.
(1T29:5-25). All the contract required was during the snow
storm that initial plow throughs would be performed so
that emergency vehicles could get to the location. This
was the contractual duty that the court held that LMS
undertook and met.
In order to establish Respondents’ negligence,
Petitioner needed to show (1) Respondents owed a duty of
care; (2) they breached that duty; (3) actual and proximate
causation; (4) damages. Petitioner’s claim failed to prove
a prima facie case because Petitioner cannot prove that a
condominium association is required to remove snow from
a roadway in the midst of a snow storm in order to make
it safe for pedestrians. Petitioner took the unreasonable
position that the streets must be entirely snow free, during

7
an active snow storm for pedestrians. If Petitioner cannot
prove that a duty exists and therefore no breach, then
Petitioner’s claim under negligence must fail. Her claims
against LMS failed since the New Jersey Courts held
that, LMS had no contractual duty to pedestrians in the
middle of an active snowstorm.
Petitioner also argues here that somehow the New
Jersey Condominium Act was violated. Petitioner
argues that the Act requires Condominiums to maintain
insurance for persons who get injured on the property.
The Respondent, Society Hill, in this case did maintain
insurance. What plaintiff fails to appreciate is that
the insurance is not some type of strict liability policy
whereby any individual injured collects money. Rather
the insurance policy indicates that persons injured will be
paid if the Condominium owner was somehow negligent
and that negligence was the proximate cause of an injury.
The Appellate Court properly disposed of Petitioner’s
reliance on the Condominium Act as not applicable to the
instant matter. The Court cited New Jersey Appellate R.
2:11-3(e)(1)(E). “(1) Civil Appeals. When in a civil appeal
the Appellate Division determines that any one or more of
the following circumstances exists and is dispositive of a
matter submitted to the court for decision: (E) that some
or all of the arguments made are without sufficient merit
to warrant discussion in a written opinion…” Basically
what the Appellate Court was saying was that Petitioner’s
arguments with regard to the Condominium Act were
without merit and did not warrant discussion.
The trial court correctly found that Petitioner’s expert
report of George Sosnowski was a net opinion. Respondents
argued that Sosnowski’s report failed to base his opinions

8
on facts supported by claims of deviations from standards
of practice. Sosnowski’s report was based on conjecture
and standards that were not applicable to the case. It is
well established that expert “testimony should not be
received if it appears that the witness is not in possession
of such facts as will enable him to express a reasonably
accurate conclusion as distinguished from mere guess or
conjecture. The witness should not be allowed to express
an opinion on an inadequate basis.” Vuocolo v. Diamond
Shamrock Chemical Co., 240 N.J. Super. 289, 299 (App.
Div.), cert. denied, 122 N.J. 333 (1990). The trial court in
the instant matter reasoned,
I have gone over this expert report several
times. And it is a net opinion...And while he
referred to BOCA codes and things like that,
you know, he didn’t tie – he didn’t – the—he
didn’t tie them into what is the standard for
what he was talking about in terms of there
being a need for more equipment while it is
still snowing or things like that. This was all
his opinion as to the lack of equipment. And
it’s a net opinion. It was not based on anything
that’s – any kind of recognized standard, other
than his own opinion.”
(2T23:12-25, 2T24:1-9). The Appellate Court affirmed
the trial court’s finding that Plaintiff’s expert report was
without factual basis in the record.

9
II. The Petition Contains Misstatements of the Facts
and Law
The Petition is replete with misstatements of facts and
law. Petitioner misstates the evidence that was presented
before the trial court. The underlying incident was a slip
and fall in snow on the street during an active snowstorm.
Petitioner was on duty when she arrived at Society Hill at
3 p.m. on March 5, 2015. Petitioner incorrectly states in
her brief that the snow had tapered off prior to Petitioner’s
arrival at Society Hill. All of the evidence presented in
this case contradicts that, as it showed that it was actively
snowing when Petitioner arrived and when she fell.
Petitioner’s own testimony as well as that of the witnesses,
Officer Tavares, Officer Vidal, and EMTs Daniela Solano
and Jemell Clark all agreed that it was snowing at the
time of the incident. (Pa53, Pa92, Pa71)
Society Hill contracted with LMS to begin to perform
automatic snow services. That contract contained a
provision which said LMS would start providing some
services automatically if a two inch trigger was met.
(Pa215-Pa227). Those initial services which began upon
the two inch trigger, included an “initial pass-through”
throughout the entire Society Hill complex. The purpose
of this pass-through was to have a single plow lane
through the streets to allow vehicles to enter and exit the
development. During this initial plow-through, LMS was
not plowing the street, curb to curb nor are they able to
remove all of the snow from the road surface. The contract
with regard to initial pass throughs does not address
pedestrians. The evidence in this case showed that the
initial pass throughs were for the purpose “to reasonably
clear roadways to help enable cars to leave/ arrive the

10
community except in extreme conditions”. (Pa216). Per
the contract, upon the snow ceasing, LMS is to begin
performing snow removal services.
On March 5, 2015, March 6, 2015 and March 7, 2015,
LMS performed snow removal services at Society Hill
for a 7.2 inch accumulation of snow. (Da16a). The evidence
shows that on, March 5, 2015, it snowed approximately 8
inches. (Da16a; Da17a). The trial court found that LMS
met its contractual duty to open the streets for vehicles and
found as evidence of that fact that the Petitioner’s vehicle,
her fellow officer’s vehicle and the ambulance were all able
to get to the scene through those streets during the snow
storm. (1T5:8-25; 1T6:1-3; 1T6:10-25; 1T7:1-9).
Contrary to the evidence in the record, Petitioner
misstates that there was no snow removal performed at
Society Hill on the day in question. Thereafter, Petitioner
misstates there was insufficient people at Society Hill
conducting snow plowing services. There is insufficient
evidence in the record to support such a statement.
Petitioner never asked which or how many LMS employees
were on site prior to the snowfall ending.
Petitioner misstates the alleged injuries in this matter.
Respondents respectfully request any and all argument
related to the alleged medical condition be disregarded
as they have nothing to do with the liability issues related
to this appeal. However, for the purpose of completeness,
Petitioner never produced any evidence to suggest that
Ms. Kerton was diagnosed with cauda equine syndrome,
incomplete paraplegia, and traumatic brain injury. Dr.
Todd Lisenmeyer, a urologist, did not make a casual
connection between the Petitioner’s alleged spinal cord

11
injury and the incident that occurred on March 5, 2015.
Petitioner has never supplied any narrative report from
any medical expert that diagnoses Ms. Kerton with those
injuries and/or relates those injuries to this incident. In
contrast, the defense has had plaintiff examined and
our doctors can find no objective medical evidence of
Petitioner’s claimed injuries.
Lastly, Respondents would also like to direct this
court’s attention to Petitioner’s argument that the
arbitration award finding of liability should be evidential
or accepted for the proposition that the Respondents were
negligent. (Pa15). New Jersey Rule of Court 4:21A-4(e)
purposefully forbids the use of arbitration awards in any
proceeding after the arbitration when a trial de novo is
filed for the sheer reason that is not evidence and is solely
an award based on the arbitrator’s findings at the time of
arbitration. It is obvious why the Courts have this rule as
strategy reasons for why a party may or may not defend
a matter at arbitration should not be used against a party
at a later time.

12
III. Conclusion
For all of the reasons set forth in Respondents’
Opposition to Petitioner’s petition for writ of certiorari,
Respondents respectfully request this Court to deny
Petitioner’s petition for certiorari.
			Respectfully Submitted,
Michael Jubanyik
Counsel of Record
Michelle Cappuccio
Reilly, McDevitt & Henrich, P.C.
Three Executive Campus, Suite 310
Cherry Hill, New Jersey 08002
(856) 317-7180
mjubanyik@rmh-law.com
Counsel for Respondents
Dated: August 9, 2019

